                                    CLOSEOUT OF M96060016
         On June 6, 1996, OIG received a phone call fiom the complainant1 who alleged that the
subject2had submitted falsified data in a NSF proposal3 that was eventually funded. The complainant
claimed that several years earlier the subject had asked him to plot a curve based on four data points
recorded on a sheet of paper. Unhappy with the appearance of the curve, the subject allegedly asked
the complainant to "make it look better" by moving data points such that the peak appeared at a
different coordinate value. The curve was supposedly manipulated so that it would appear to more
closely agree with other recorded data obtained by usiig a different experimental method. The
complainant then claimed that this falsified data was used in the NSF proposal. The complainant said
that, as far as he is aware, other researchers on the project were neither involved nor made aware of the
data manipulation. The complainant agreed to provide OIG with the original diskette on which the
original and falsified data files were stored and a written version of his story.
        Even afier a reminder telephone call and letter, the complaint still had not provided any
evidential material to support his allegations. Without evidence to support the allegation of data
fabrication, OIG decided that this inquiry is closed and no further action will be taken in this case.


cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, IG




    ' (footnote redacted).
     (footnote redacted).
     (footnote redacted).
                                              Page 1 of 1
